                                           UNITED STATES DEPARTMENT OF EDUCATION 

                                                OFFICE OF INSPECTOR GENERAL 

                                                                      REGION V 

                                                              111 NORTH CANAL, SUITE 940 

                                                                CHICAGO, ILLINOIS 60606 


                                                                    FAX: (312) 353-0244
    Audit                                                                                                                                      Investigation
(312) 886-6503                                                                                                                                (312) 353-7891


             MEMORANDUM                                                                        AUG 0 6 Z003
             TO: 	                 Ronald Tomalis
                                   Acting Assistant Secretary
                                   Office of Elementary and Secondary Education



             FROM: 	
                             ~~~~
                              Ric~d
                                   Regional Inspector General
                                   for Audit Services

             SUBJECT: 	 FINAL AUDIT REPORT
                        Audit o/Cleveland Municipal School District's Set-Aside Funds/or
                        District-Wide Activities
                        Control No. ED-OIG/A05-D0009


             Attached is our subject report presenting our findings and recommendations resulting
             from our audit of Cleveland Municipal School District's Set-Aside Funds for District­
             Wide Activities.

                 In accordance with the Department's Audit Resolution Directive, you have been
                 designated as the action official responsible for the resolution of the findings and
                 recommendations in this report.

                 If you have any questions or wish to discuss the contents of this report, please contact me
                 at 312-886-6503.

                 Please refer to the above audit control number in all correspondence relating to this
                 report.




                 Attachment




                        Our mission Is to promote the efficiency, effectiveness, and Integrity of the Department's programs and operations.
                                        UNITED STATES DEPARTMENT OF EDUCATION 

                                             OFFICE OF INSPECTOR GENERAL 

                                                                  REGION V 

                                                          III NORTH CANAL. SUITE 940 

                                                            CHICAGO. ILLINOIS 60606 


                                                                 FAX: (312) 353-0244
     Audit                                                                                                                                  Investigation
(312) 886-6503                                                                                                                             (312) 353-7891

                                                                                      AUG 0 n ?OO~

                                                                                   Control Number ED-OIG/AOS-D0009


           Dr. Susan Tave Zelman
           Superintendent of Public Instruction
           Ohio Department of Education
           25 South Front Street, 7tlt Floor
           Columbus, OH 43215-4183

           Dear Dr. Zelman:

           This Final Audit Report presents the results of our audit of Cleveland Municipal School
           District's (District) administration of Title I, Part A (Title I) of the Elementary and
           Secondary Education Act of 1965, as amended l (the Act), Set-Aside programs2 for the period
           July 1,2001, through June 30, 2002. Our objectives were to determine whether the District
           (1) consulted with private school officials prior to making decisions concerning Set-Aside
           services provided from Title I funding, and (2) provided equitable Set-Aside services and
           other benefits to private school participants with Title I funds.

           We provided a draft of this report to the Ohio Department of Education (ODE) and the
           District. In its response dated June 27, 2003, ODE agreed with our recommendation that it
           ensure the District develops and implements a comprehensive consulting plan and stated it
           will continue to monitor District compliance with the consultation requirement. ODE
           disagreed with our conclusions that the District (1) did not provide meaningful consultation
           to private schools, (2) did not provide equitable Set-Aside services to private school .
           participants, and (3) had an inconsistent policy for providing substitute teachers. ODE also
           disagreed with our recommendations that the District restore funds to compensate for
           inequitable Set-Aside services and questioned costs totaling $60,469.

           After reviewing ODE's response, we reclassified $17,402 of the questioned costs as
           allowable. Other than this reclassification, we have not made any changes to our findings or
           recommendations based on ODE's response. ODE did not provide any documentation to
           support changing our findings or recommendations. We have summarized ODE's comments
           after each fmding, and have included the response as an Attachment.

           I The Elementary and Secondary Education Act of 1965 was amended by the Improving America's Schools Act
           of 1994.
           2 Before calculating the per-pupil amount for public and private school children from low income families, the
           local education agency may set aside Title I funds for district-wide programs and activities.


                     Our mission Is to promote the efficiency, effectiveness, and Integrity of the Department's programs and operations.
Final Audit Report	                                                           ED-OIG/A05-D0009


                                      AUDIT RESULTS 


The District (1) did not provide meaningful consultation to private school officials during the
design and development of Set-Aside programs; (2) used Title I funds totaling $1,978,820 to
provide Set-Aside services for public school participants, but did not provide equitable
services to private school participants; and (3) used Title I funds totaling $43,067 to pay for
services not rendered to students at a private school.

Finding Number 1 	 The District Did Not Provide Meaningful Consultation To Private
                   School Officials

The District did not provide meaningful consultation to private school officials during the
design and development of Set-Aside programs. To support that it consulted with private
school officials, the District only provided a list of private schools it met with and a letter
sent to private school principals containing a needs assessment and parental survey. The
District did not provide any documentation of what it discussed at these meetings or
responses to the needs assessments or parental surveys. Several private school principals
stated that the meetings were discussions about Auxiliary Services, which the District
provides all private schools with State money. Several principals said the Title I program
was not even discussed, and one principal said the District offered no flexibility with the
Title I programs it offered. The Diocese of Cleveland’s Director of Government Programs
stated he would like more consultation with the District regarding the initial budgeting of
Title I funds, assessment, professional development, parental involvement, summer school,
and in-service programs.

Section 1120(b)(1) of the Act and 34 C.F.R. § 200.10(a) and 11(a) (2001) require that a local
education agency consult with appropriate private school officials. To ensure timely and
meaningful consultation, the Act requires that local education agencies consult with
appropriate private school officials during the design and development of agency programs
on issues such as what services will be offered and the size and scope of the equitable
services to be provided to eligible private school children. Section 1120 (b)(3) of the Act
requires that consultation include a discussion of service delivery mechanisms.

The District did not have procedures in place to ensure it would conduct and document
meaningful Set-Aside consultation with private school officials, including discussions of
services it would offer, the size and scope of services to be provided, and service delivery
mechanisms. The lack of meaningful consultation increased the risk that services and other
benefits of Set-Aside programs would not address the needs of private school participants,
and would not be equitable to those provided to public school participants.




                                                2

Final Audit Report	                                                          ED-OIG/A05-D0009


Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education direct
ODE to

1.1 	   ensure the District immediately develops and implements a comprehensive Title I
        consulting plan that outlines how the District will consult with private school
        officials, including the use of Title I funds. This plan should be developed in
        conjunction with private school representatives, and agreed to and signed by private
        school and District officials to ensure meaningful consultation occurs and is
        documented.

1.2 	   conduct a monitoring visit to ensure the District implemented the consulting plan.

Auditee Comments

ODE disagreed that the District did not provide meaningful consultation to private schools.
To support its position, ODE cited needs assessment meetings the District held with private
schools, and referred to a letter from the Diocese of Cleveland’s Director of Government
Programs that mentions needs assessment meetings. ODE agreed that the District could have
kept better documentation of the consultation process and agreed with our recommendation
that it ensure the District develops and implements a comprehensive consulting plan. ODE
stated that the District has implemented a comprehensive consulting plan, including a
detailed list of action steps to ensure enhanced communication and documentation in the
future. ODE also stated it will continue to monitor District compliance with the consultation
requirement.

Auditor Response

ODE did not provide us with any additional documentation such as agendas, minutes, or
information received from the meetings to indicate Title I consultation took place during the
referenced meetings with private schools. Contrary to ODE’s statement, private school
officials have stated that these meetings did not include consultation for the Title I program.
ODE did not provide any evidence that the District has implemented or even developed a
consultation plan that will ensure it will conduct and document meaningful Set-Aside
consultation with private school officials. ODE’s response does not provide sufficient
support to cause us to change our finding or recommendations.

Finding Number 2 	 The District Did Not Provide Equitable Set-Aside Services To
                   Private School Participants

The District used Title I funds totaling $1,978,820 to provide Set-Aside services for public
school children, parents, and teachers, but did not provide equitable services to private school
participants. The District used Title I funds for parental involvement to support school-based
community aides only at public schools. Also, it used Title I funds for professional




                                               3

Final Audit Report                                                           ED-OIG/A05-D0009


development to support the Help One Student to Succeed (HOSTS) program only at public
schools.

The District spent $1,762,674 of Title I funds to provide 109 school based community aides
that planned and implemented the parental involvement program at public schools. The
District did not provide any evidence that it made any effort to involve private school parents
in the community aide program or that it even made them aware of the program. The former
Non-Public Schools Title I Coordinator told us she talked to private school officials and sent
notices regarding parental involvement at the beginning of the school year. However, private
school principals stated they were not even aware of the community aide program and
wanted more parental involvement programs. Also, the Diocese of Cleveland’s Director of
Government Programs said the Catholic principals wanted parental involvement programs
(for example, teacher parent in-service programs), but the District did not offer them.

The District spent $216,146 of Title I funds to provide the HOSTS program at 11 public
school sites. We verified with the District’s former Non-Public Schools Title I Coordinator
and the HOSTS Coordinator that the private schools did not participate in the program. The
HOSTS Coordinator stated the private schools would have had to use their Title I per-pupil
allocations, rather than Set-Aside for professional development, to have the HOSTS program
in their schools. Some private school officials inquired about the program, but they did not
participate because of costs totaling $47,000 per school for the first year.

Section 1120(a)(3) of the Act requires that educational services and other benefits for private
school children be equitable in comparison to services and other benefits for public school
children. Also, 34 C.F.R. § 200.11(b)(2) states that

       Services are equitable if the LEA— (i) Addresses and assesses the specific
       needs and educational progress of eligible private school children on a
       comparable basis as public school children; (ii) Meets the equal expenditure
       requirements...; and (iii) Provides private school children with an opportunity
       to participate that— (A) Is equitable to the opportunity provided to public
       school children....

The District did not have a consulting plan in place with procedures to ensure it would
provide equitable Set-Aside services to private school participants. Private school
participants did not benefit from $1,978,820 of Title I funds, including $1,762,674 for
community aides for the parental involvement program and $216,146 for the HOSTS
professional development program. Providing funds for community aides and the HOSTS
program did not (1) address the specific needs and educational progress of eligible private
school participants, or (2) provide private school participants with an opportunity to
participate that was equitable to the opportunity provided to public school participants.




                                               4

Final Audit Report	                                                          ED-OIG/A05-D0009


Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education direct
ODE to ensure the District

2.1 	   includes, in its consultation plan developed in response to Recommendation 1.1,
        procedures to ensure it will provide equitable Set-Aside services to private school
        participants. The procedures should include meeting with private school officials to
        discuss their needs regarding professional development and parental involvement.
        Based on the needs and potential programs discussed, the District should use Title I
        funds to provide programs for private school participants. The District should
        maintain documentation to show that it discussed the Set-Aside services with private
        school officials (for example, have private school officials sign documentation).

2.2 	   provides an equitable share of Set-Aside services to private school participants in
        future school years.

2.3 	   provides services in the upcoming school year, in consultation with private school
        officials, to compensate for the inequitable Set-Aside services during the audit period.

Auditee Comments

ODE did not address our recommendation to ensure the District includes, in its consultation
plan, procedures to ensure it will provide equitable Set-Aside services to private school
participants. ODE disagreed that the District (1) did not provide equitable Set-Aside services
to private school participants, and (2) should restore funds to compensate for inequitable Set-
Aside services. ODE stated that the District will continue to provide an equitable share of
Set-Aside services to private school students. The District did not believe the community
aide program was intended to be equitably shared with private schools because the aides
were originally assigned to the public schools as the result of a federal desegregation case.
ODE stated the District will provide professional development opportunities to parent
liaisons at private schools to remedy the finding. The District made the HOSTS program
available to private schools on the condition the private schools provide HOSTS teachers
from their General Funds, as the District did. However, none of the private schools chose to
participate. The District will further discuss the needs of private schools to come to an
agreement for providing training services to private school tutors.

Auditor Response

ODE did not dispute our conclusions that private schools did not participate in the
community aide or HOSTS programs. ODE’s explanation that the community aide program
is the result of a plan to remedy a federal desegregation case does not justify the District’s
use of Title I funds for a Set-Aside program that did not meet the equitability requirements of
the law and regulations. Unless the District modifies the community aide program to meet
the equitability requirements, the program will continue to be inequitable. The District
informed us that it paid for HOSTS teachers with its General Funds, but documentation it



                                               5

Final Audit Report	                                                            ED-OIG/A05-D0009


provided during our field work shows Title I funds paid for these teachers. Title I funds set
aside for the HOSTS program only benefited public school participants. By making the
HOSTS program available to private school participants only if the private schools paid for it
with their own funds, the District did not meet the equitability requirements for the program.
We have not changed our conclusion or recommendations based on ODE’s comments.

Finding Number 3	 Title I Funds Paid For Services Not Rendered To Students at a
                  Private School

From late November 2001, through the end of the school year, the District used Title I funds
to pay the salary of a Title I teacher assigned to Urban Community School, even though the
teacher did not actually provide services to students at the school. The Title I teacher, a
District employee who was to provide five days of Title I services, stopped providing
services on November 28, 2001, and took a leave of absence through the end of the school
year. Using Title I funds, the District paid the Title I teacher’s salary for the entire leave of
absence. The District did not provide a substitute until April 2002, four months after the
teacher left.

The District did not immediately replace the teacher because it does not apply its substitute
policy to a private school. According to its policy, if a District teacher takes sick leave, the
District continues to pay that teacher's salary and must make every effort to find a regular
substitute. Each District school has a separate fund established from which it pays
substitutes for teachers on sick leave less than 10 days. After the 10th day of leave, the
District covers the cost of substitutes using the General Fund. The District’s Chief Financial
Officer said there are no such funds to provide substitutes for Title I teachers at private
schools. He said the District does not provide its own funds to pay substitutes at private
schools because it feels it should not subsidize federal grants.

Office of Management and Budget Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments, Attachment A, Paragraph C.3 (1997) states that a cost is
allocable to a particular cost objective in accordance with relative benefits received. From
late November 2001, through the end of the school year, the District charged Title I for the
teacher’s salary and fringe benefits of $43,067 for which Title I received no benefits. Title I
students at Urban Community School received no benefits from these charges. Therefore,
the costs are unallowable.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education direct
ODE to ensure the District

3.1 	   restores $43,067 to Urban Community School’s Title I allocation in the upcoming
        school year to provide Title I services to private school participants.

3.2 	   establishes and implements written policies for providing Title I substitutes to ensure
        those policies are comparable for District teachers at private schools.



                                                6
Final Audit Report                                                            ED-OIG/A05-D0009


Auditee Comments

ODE disagreed with the unallowable costs. ODE stated that the District agreed no services
were provided to students at a private school, but for a shorter time frame than we concluded.
The District granted leave to the teacher on December 26, 2001, began searching for a
substitute to start after a two-week winter break (ending January 7, 2002), and identified and
assigned a long-term substitute on March 20, 2002. Students required no services during the
winter break and three other school holidays, resulting in no services being provided for a
timeframe that was less than two months. ODE provided a written attestation from the
substitute teacher stating he began working at Urban Community School on March 20, 2002,
for one day a week, and provided Title I services to another private school the other four days
of the week.

ODE disagreed that the District had an inconsistent policy for providing substitute teachers.
ODE also summarized the District’s policy for providing substitutes for teachers at District
schools using funds from each school’s substitute fund (for the first 10 days) and the General
Fund (after 10 days). Urban Community School refused to pay for the substitute with its
own funds. ODE said it would encourage public and private schools to budget for substitutes
from their per-pupil amounts. ODE also expressed a concern with expecting districts to
provide, with their own funds, substitutes at private schools.

OIG Response

ODE did not provide sufficient documentation for us to revise our conclusion that the teacher
at Urban Community School provided no Title I services from late November, 2001 through
the end of the school year. According to Urban Community School’s Principal, the teacher
last reported to work on November 28, 2001. The day the teacher began his absence, not the
dates the employee requested leave or the District granted leave, is relevant to the
computation of the period in which the employee did not provide services. Therefore, the
$43,067 based on the teacher’s salary and fringe benefits for the period remains unallowable.
Because ODE provided additional documentation that the substitute provided Title I services,
we reclassified $17,402 for the substitute’s salary and fringe benefits as allowable.

Title I teachers at both public and private schools are District employees. Therefore, the
District should treat these positions consistently. If a Title I teacher at a public school went
on an extended leave of absence, the District would provide a substitute. After the 10th day
of leave, the District would cover the cost of a substitute using the General Fund, not Title I
funds. Because the District did not follow this procedure to provide a substitute Title I
teacher at a private school, it applied its policy for providing substitutes inconsistently. We
have not changed our conclusion or recommendation regarding the substitute teacher policy.




                                               7

Final Audit Report	                                                                        ED-OIG/A05-D0009


                                             BACKGROUND 


The Act (Public Law 103-382) authorized the Title I program during our audit period.3 The
program provides funds for supplemental educational services for eligible public and private
school students living in high-poverty areas. The program provides, through state
educational agencies, formula grants to local educational agencies to help low-achieving
children meet challenging state curriculum and student performance standards in core
academic subjects. Title I program services target children who are failing, or at most risk of
failing, to meet state academic standards. Before calculating the per-pupil amount for public
and private school children from low income families, the local education agency may set
aside Title I funds for district-wide programs and activities. Allowable Set-Aside activities
are contained in 34 C.F.R. § 200.27.

ODE allocated $34,076,927 in Title I funds to the District for fiscal year 2002. Of this
amount, the District budgeted $8,721,151 for the following Set-Aside activities:

           Administration                    $1,504,470            

           Parental Involvement              $2,762,113 

           Professional Development          $ 590,490 

           Neglected Children                $ 242,045 

           Homeless Children                 $ 190,000 

           Basic Skills                      $2,280,9604

           Indirect Costs                    $1,151,073

                                             $8,721,151

                         OBJECTIVE, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine whether the District (1) consulted with private
school officials prior to making decisions concerning Set-Aside services provided from Title
I funding, and (2) provided equitable Set-Aside services and other benefits to private school
participants with Title I funds5 for the period July 1, 2001, through June 30, 2002.

To accomplish our objectives, we

    1. 	      reviewed the financial statement and Office of Management and Budget Circular
              A-133 audit report for the year ended June 30, 2001, prepared by an independent
              accountant;
    2. 	      reviewed the District’s Consolidated Local Project Plan approved on October 26,
              2001;



3
  The No Child Left Behind Act of 2001, signed into law January 8, 2002, currently authorizes the Title I 

program and still requires consultation with private school officials and equitability of Set-Aside services. 

4
  Represents the Title I per-pupil amount for 4,455 private school children eligible for Title I services. 

5
  We did not determine the equitability of benefits provided by Title I funds for neglected and homeless children

because these funds only benefited children at residential sites and shelters, respectively. 



                                                       8
Final Audit Report	                                                           ED-OIG/A05-D0009


    3. 	    reviewed the District’s organization chart, expenditure reports, payroll records,
            documentation of the uses of Title I funds for Set-Aside services, and other
            documents provided by District and private school officials;
    4. 	    reviewed ODE’s Title I Program Review Checklist For Fiscal Year 2002 and its
            policies and procedures for monitoring the District’s compliance with
            consultation and equitability requirements; and
    5. 	    interviewed various District employees, officials from Catholic and other private
            schools, ODE personnel, independent accountant personnel, and Department of
            Education personnel.

The Director of Government Programs for the Diocese of Cleveland contacted the Office of
Elementary and Secondary Education with concerns about the District’s Title I program. The
Director stated he was not satisfied with the quality of instruction the District provided for
private school participants. Also, the District was not providing equitable services for the
teachers and families of participating Catholic school students. We selected the District
based on these concerns. To determine whether these concerns were valid, we judgmentally
selected and interviewed 9 of 61 private school principals regarding Set-Aside consultation
and equitability of benefits. We interviewed 4 of 7 non-Catholic school principals (selected
4 schools with the largest Title I allocations), and 5 of 54 Catholic school principals (selected
2 schools with the largest allocations and 3 schools with medium allocations).

We conducted our field work at the District’s administrative offices in Cleveland, Ohio,
during the period December 9, 2002, to February 14, 2003; and at ODE’s administrative
offices in Columbus, Ohio, during the period February 10, 2003, to February 12, 2003. We
discussed the results of our audit with District and ODE officials on March 11, 2003.

Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of the audit described above. We did not rely on
computer-processed data to achieve our audit objectives.

                      STATEMENT ON MANAGEMENT CONTROLS

We did not assess the District’s management control structure applicable to Title I funds
because it was not necessary to achieve our objectives. However, our review of (1) the
District’s consultation with private school officials, and (2) the equitability of services and
other benefits of Title I funds to private school participants disclosed instances of non-
compliance with federal law and cost principles. These instances led us to believe
weaknesses existed in the District’s controls over Title I funds. These weaknesses and their
effects are discussed in the AUDIT RESULTS section of this report.

                              ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department
of Education officials.



                                               9
Final Audit Report                                                         ED-OIG/A05-D0009




If you have any additional comments or infonnation that you believe may have a bearing on
the resolution of this audit, you should send them directly to the following Education
Department official, who will consider them before taking final Departmental action on the
audit.

                              Ronald J. Tomalis, Acting Assistant Secretary                    r·

                              Office of Elementary and Secondary Education
                              U.S. Department of Education
                              FOB-6, Room 3W300 _
                              400 Maryland Avenue, SW
                              Washington, D.C. 20202

Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations
contained therein. Therefore, receipt of your comments within 30 days would be greatly
appreciated.

In accordance with the Freedom ofInfonnation Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available, if requested, to members of the press and general
public to the extent infonnation contained therein is not subject to exemptions in the Act.


                                      Sincerely,


                                  O;~Q

                                      RiC~                    

                                      Regional Inspector General
                                      for Audit

Attachment

cc:     Ms. Barbara Byrd-Bennett, CEO, Cleveland Municipal School District




                                               10 

                                                                                    ATTACHM ENT
                                                                                    PAGE I of4


                                                                                            S..... n Tave Zelman




     June 1:1, 2003



     Mr. Richard 1. Dowd
     Regional Inspector General for Audit
     United Sta\e$ DepanlTlCnt of Education
     Office of Inspector General
     111 North Canal, Suite 940
     Chicago, lL 60606

     Dear Mr. Dowd:

     Thank you for the opportunity to provide written comments regarding the findings and recomme nd ations
     of your Draft Audit Report of the Cleveland Municipal School District's administration of Title I, Pan A.
     (July 1,200 1 through June 30, 2(02). We appreciate the courtesies you and your team members have
     eJ[tended to us. It is our hope that we can resolve the important issues raised in your report.

     Aner careful review of your dan report, sever&\ consultations with the Cleveland Municipal School
     District and examination of recon:Is; we believe that our comments will shed more light 0fI som= of the
     findings and recommendations contained in your draft report. The District and ODE have already
     instituted tome practices that minor Of build upon several of your recommendations. Our aim is to
     continually do business in such a way that all disadvantaged children in Ohio improve academica ll y.
     Thtl5e re5ponses are offered with that aim in mind.

     Findings
     Finding NI: The district did DOl: provide meaningful consultation with private IiChool officials during the
     design and development of Set-Aside programs.

     ODe ResPOnse: The District did engage: in consultation with non-publics. The District scheduled and held
     "needs assessment" meetings with numerous non -public IiChoo!s in January and February 2001 prior to
     the beginning of the 2001-2002 school year being audited. Documentation was provided as to tlte
     meeting times and dates with all of the non-public schools. In addition, doc umentation in the fonn of I
     letter was provided to the Fc:dCJ"lI auditon from the Director of Government Programs or the Oevellnd
     Catholic Diocese representing over 9O'J> of all non-public schools acknowledging Title I "needs
     assessment" meetinp ror the 2011l-2002 school year.

     Without question both the District and ODE agree that the District could have kept better documentation
     of the consultation process. To ensun: enhanced communication and documentation in the future the
     District now has a detailed list of action steps in place. ODS will continue to monitor District compliance
     with its plan I nd the consultation legal requirement. Please note that before any consolidated application
     can receive final approval from ODe III signed paper consultation forms must be submitted to our office.




•

    FINAL AUDIT REPORT                                                          ATTACHMENT
    ED-OIGlA05D0009                                                             P AGE2of4


Finding 112: Used Title I funds tOlaling $ 1,978,820 to provide Set-Aside services for public school
participants, but did nOl prov ide equitable services to private school participants.

OPE Respon se: Nonpublic participants were infonned of professional development act ivities and
relevant parent liaison training opportunities. A hard copy of the Professional Development Course
Catalog was made available to all public, non-publ ic schools and libraries. It listed the professional
development activities offered for the 2001-2002 school year. This document was also accessible online
at www.cmsdnet.net.

Help One Student to Succeed (HOSTS) was included within the professional development budget
because it was intended for training HOSTS teachers. The District made these services avai lable to non­
public participants at '"needs assessment" meetings on the condition that the non-public schools provide
HOSTS teachers from their General Funds, as the District did. None of the non-public schools ele<:ted to
participate.

We agree that early communication is key. The District will further discuss the needs of the non-public
schools in regard to HOSTS or other appropriate set-ll.sides and come to a mutual documented agreement
in tenus of providing training services to tutors within the non-public schools. The District will continue
"face-to-face" consultation meetings with the non-public schools to describe federal title programs
available to non-publ ic schools. identify their needs and answer their questions and concerns so that they
can make appropriate decisions regarding program participation.

In regard to the Parental hwolvement funding used to provide conununity aides to the public schools, the
District does not bel ieve this service was intended to be equitably shared with the non-public schools. The
community aides were originally assigned to the public schools as part of a plan involving remedies
related 10 a federal desegregation case. This plan and remedy did not involve non-public schools.
However, the District will offer parent liaison professional deve lopment opponunities to non-public
schools that are offered to public schools.

Finding #3: The district used Title I funds totaling $60,469 to pay for services not rendered to students at
a private school.

ODE Response The District respectfully disagrees with the dates claimed that no service was provided.
The teacher assigned to Urban Coinmunity School applied fOl" a leave of absence on I2/ ISJOI and was
granted leave on 12126101 (as evidenced by the signed leave of absence fonn attached). Once the District
became aware of the pending absence at Urban Community School, the search began for a long-term
substitute to start after the completion of the two-we<:k wimer holiday break (e nding InlO2). A substitute
was identified and assigned on 3/20102 to Urban Communi ty School for the remainder ofthe school year
as evidenced by an attestation statement provided by the substitute teacher. The teacher worked at Urban
Community School one day a week. Furthermore, it should be noted that scbool was not in session and
therefore, students required no services during the two-week winter break, Dr. Martin Luther King, Jr.
Day, President's Day, and a professional day during the timeframe cited above thereby reducing the
timeframe to less than two months.

In addition, we respectfu ll y disagree that the substitute practice was incons istently applied between public
and non-public schools. The District practice is not to prov ide substitutes to any federally or state funded
programs unless specifically budgeted within the gram. TIle D istrict maintains a pool of building
substitutes within each school, paid for by the Dislrict's General Fund, who fill in where needed in that
school. If a bui lding needs more substitutes than its pool provides, the District then locates additional
substitutes, again paid for from the District's General Fund. TIle first ten days where a substitute replaces



                                                                                                               2
         FINAL AUDIT REPoRT                                                          ATIAC Ii MEr-.'T
         ED-OIG/AOSDCOO?                                                             PAGE 30f4


     the regular teacher is pa id from the respective schools' ~ neral Fund school-based budget. After these
     ten days. the substitu te cost is charged to a central Di strict ~neral Fund cost center.

     The D istrict provides schedu ling services to non-public schools for subst itute teachers, provi ded the non­
     public school is willing to pay the cost of the su bstitute teac her from their General Fu nds as the District
     does. The Urban Commun ity School {non-public school did not choose to take this option when offered
     beca use it was unwilling to commit its ~neral Fund monies. Nevertheless. tbe District still provided a
     substitute teacher that was charged to Title I only while providing Title I services. In the future, both
     publ ic and non-public schools will be encouraged to budget for substitutes from the per pupil allocation.
     O DE will strongly encourage and the District plans to hold discussions with the non-public schools to
     establish policies and procedures for the substitute issue.

     The State is particularly concerned about the policy implications around the state if di stricts are expected
     to provide substitutes for non-public schools out of the public school pol1ion of fund s or out of general
     reven ue funds. The consequences would be pal1icularly onerous to small and rural public schools with
     limi ted Title I and general revenue funding. No one can forecast who is going 10 be QUt for extended
     leave. In the case of Cleveland. it would appear that their prnctice was to not use Title I funds to provide
     Title I substitutes for the public sc hools. It would be inconsistent for them to use Title I funds to provide
     substitutes for non-public schools.

     Reconuue ndatioDs
     Recommendauon # 1 lnunediately develop and implement a comprehensive consulting plan to ensure the
     District consults with private school officials.

     ODE ReSPOnse: We concur. The District had taken the in itiative and has impl emented a comprebensive
     consuiling plan. In addition ODE will require documentation in the rorm of minutes and/or an agenda as
     to the agreements reached at the meetings . All districls in the state are required 10 submit signed
     nonpublic consu ltation fonns prior 10 approval oflheir consolidated applications. There is one non-public
     signoff for consoni um schools.

     Recommendation #2: Provide an equitable share of Set-Aside services to private school panicipants in
     future school years.

     OPE Resoonse: The District will continue to provide an equitable share of appropriate set-llsides. The
     district's move to provide non-public schools w ith professional development opponunities offered 10 their
     parenlliaisons should remedy the findings.

     Recommendation #3: Restore in FY04 Title funds set-aside during the audit period.

     ODE ReSPOnse: We believe that the non-pUblics received their equitable share of
     set-asides and that no restoration funds are warranted.

     Recommendation #4: Restore $60,469 to the Urban Community SchooL

     DOE Response: Based on the information that we have reported in Finding #3 there is no need to restore
     funding in the above amount to Urban Community School.




                                                                                                                  3



-

         FINAL AUDIT REPORT                                                      ATTACHM ENT
         JID.OIG/A05D0009                                                        PAGE4of4

    Recommendation 1t5: Establish and implemellt written policies for Title I substitutes that are comparable
    for district leachers at pri vate schools.

    OPE Respon se: It would be appropriale for the District and nOli -publics 10 cooperatively deve lop an
    approac h 10 resolving lhe substitute iss ue. As mentioned earlier Ihe non-public schools could earmark
    some of their Title I dollars 10 cover anticipated substitute COSts.

    We are available 10 disc uss these comments and any Olhc:r question s you might have. Feel free to contact
    Stephen Barr, Ed.D. wilh the Office of Reform and f'ederal Stl.ldent Programs, Ohkl Depanmelll of
    Education at (6 14) 752-1597.




    Z~/a:u-v~
    SU!IaIl Tave ZeIIlWl
    Superintendent of Public Instruc:tion

    STZJSBlRDIkab
    Enclosures

    C:       Stephen L. Barr
             Rosie Doughty
             Cleveland Municipal Schoo l District




                                                                                                                 4




-
